July 2, 2010

MEGAN BRENNAN
VICE PRESIDENT, EASTERN AREA OPERATIONS

SUBJECT: Audit Report – Consolidation of Lima Processing and Distribution Facility
         Mail Operations into the Toledo Processing and Distribution Center
         (Report Number NO-AR-10-007)

This report presents the results of our audit of the proposed consolidation of the Lima,
OH, Processing and Distribution Facility (P&DF) mail operations into the Toledo, OH
Processing and Distribution Center (P&DC) (Project Number 10XG022NO000). The
report responds to three Congressional requests. Our objective was to determine
whether a business case exists to support the proposed consolidation. This audit
addresses operational risk. See Appendix A for additional information about this audit.

                               Illustration 1: The Lima P&DF
Consolidation of Lima Processing                                             NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



The Postal Service is in a difficult financial position, and needs to continue to streamline
its processing network to reduce cost. The Postal Service has a number of proposed
consolidations throughout the nation. In January 2010, the Postal Service proposed the
consolidation of all mail processed at the Lima P&DF into the Toledo P&DC.

Conclusion

A business case exists to support consolidating the Lima P&DF’s mail operations into
the Toledo P&DC. Specifically, we found that:

       Sufficient capacity exists at the Toledo P&DC to process the Lima P&DF’s mail
        volume.

       Customer service should be maintained.

       No career employees will lose their jobs.

       Processing efficiency should improve.

       Prior consolidation of the Lima P&DF’s Saturday outgoing mail volume into the
        Toledo P&DC over the past 6 years has produced favorable results.

See Appendix B for our detailed analysis of this topic.

As a result of this proposed consolidation, the Postal Service projects it could save
more than $1.8 million during the first year and $2.3 million during subsequent years.
We generally agreed with the Postal Service’s cost savings calculations, but found they
overstated maintenance savings by $244,059 in the proposed AMP. The study included
in its maintenance cost savings three custodial positions that actually reported to the
Lima Main Post Office. The Postal Service took action to correct this discrepancy and
adjusted the projected savings to the amounts referenced above.

The Postal Service should increase communication with its employees regarding the
effects of and reasons for the proposed consolidation based on employee concerns
forwarded to congressional representatives. In addition, based on recent service
performance Postal Service management must ensure adequate controls are in place to
maintain service during implementation of this consolidation.

Additionally, during our observations on April 6 through April 11, 2010, we found
weaknesses in physical security at the Toledo P&DC. Specifically, we found the gates
surrounding the docks were left unsecured, leaving mail on the docks susceptible to
theft. In addition, the doors in some areas of the facility did not have working locks,
allowing possible unauthorized access to the building.




                                                      2
Consolidation of Lima Processing                                            NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



We recommend the vice president, Eastern Area:

1. Move forward with the consolidation of the Lima Processing and Distribution Facility
   mail operations into the Toledo Processing and Distribution Center.

2. Monitor service scores during implementation to ensure customers are not
   negatively impacted.

3. Continue to hold employee briefings to inform employees of relocation and
   retirement benefits as well as Postal Service job opportunities.

4. Meet with employees to update them on the consolidation process as it moves
   forward.

5. Ensure the Toledo P&DC access points are secure.

Management’s Comments

Management agreed with the findings and recommendations and is proceeding with
consolidating Lima P&DF operations into the Toledo P&DC. Management also agreed
to monitor service scores during implementation, conduct training on retirement benefits
and Postal Service job opportunities, and hold meetings with employees on the
consolidation process. In addition, management agreed to address security concerns
highlighted in this report. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report and management’s
corrective actions taken or planned should resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                                      3
Consolidation of Lima Processing                                         NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Frank Neri
    Susan M. LaChance
    Sally K. Haring




                                                      4
Consolidation of Lima Processing                                                            NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class Mail® (FCM) volume over the past decade. In FY
2009 there was a decline in mail volume of more than 25 billion pieces, resulting in a net
loss of $3.8 billion. In the first half of FY 2010, the volume decline was approximately 6
billion pieces and a net loss of $1.9 billion.

Although the Postal Service reduced expenses by nearly $6 billion in FY 2009 and by
almost $1.4 billion during the first half of FY 2010, the expense reduction has not been
sufficient to fully offset the decline in mail volume revenue and the rising costs of
employee benefits. In testimony before Congress,1 the U.S. Government Accountability
Office (GAO) recommended that urgent action was needed to streamline the mail
processing and retail networks, as the Postal Service no longer has sufficient revenue
to cover the cost of maintaining its large network of processing and retail facilities.
Furthermore, the GAO stated it was necessary for the Postal Service to consider
whether it was cost effective to retain underutilized facilities and take action to right size
its network.

Title 39, U.S.C., Part 1, Chapter 1, §101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L.109-435-December 20,
2006, Title II, highlights “. . .the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services. . . .”

This report responds to Congressional requests for an independent review of the
proposed consolidation of mail processing operations from the Lima P&DF into the
Toledo P&DC. The concerns of these requests are the impacts on:

       Jobs and employees
       Service
       Cost




1
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.




                                                      5
Consolidation of Lima Processing                                                                 NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



The proposed consolidation would move Lima zone 458 mail processing to the Toledo
P&DC. This consolidation was announced on May 27, 2010. There would be a transfer
of approximately 58.6 million originating and 114 million destinating mailpieces to the
Toledo P&DC to process.

The Lima P&DF and the Toledo P&DC are in the Cincinnati District in the Eastern Area
(see map).

                   Map: Districts within the Postal Service Eastern Area

                                                                                                Eastern Area
                                                                                                    FY 2010

                                                             Western
                                                             New York



                                                                        Central
                                                                                         Philadelphia Metro
                                                                        Pennsylvania

                                        Northern
                                                      Western
                                        Ohio
                                                      Pennsylvania
                                                                                       South
                                                                                       Jersey


                                     Columbus

                        Cincinnati



                                           Appalachian



                  Kentuckiana




                                                         6
Consolidation of Lima Processing                                           NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether a business case exists to support the proposed
consolidation of mail processing operations from the Lima P&DF into the Toledo P&DC.
We reviewed current and historical data and performed an independent analysis of mail
volumes, work hours, and employee complement at both plants. We evaluated current
and potential efficiencies as well as capacity at both plants. We estimated the costs and
savings from this analysis. Additionally, we conducted observations at both sites during
March and April 2010 and interviewed Postal Service management and employees.

We used computer-processed data from the following systems:

       Enterprise Data Warehouse
       Customer Satisfaction Measurement (CSM) System
       Web Complement Information System
       Activity-Based Costing System

We conducted this performance audit from February through July 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on May 6, 2010, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




                                                      7
  Consolidation of Lima Processing                                                    NO-AR-10-007
   and Distribution Facility Mail Operations
   into the Toledo Processing and Distribution Center

  PRIOR AUDIT COVERAGE

                                             Final
                                            Report          Monetary
  Report Title       Report Number            Date           Impact             Report Results
Pasadena,            EN-AR-06-001          9/26/2006           N/A     The area mail processing (AMP)
California                                                             proposal work hour cost
Processing and                                                         analysis was supported and OIG
Distribution                                                           analyses provided evidence for
Center                                                                 consolidating outgoing mail
Consolidation                                                          processing operations from the
                                                                       Pasadena P&DC to the Santa
                                                                       Clarita and Industry P&DCs.
                                                                       However, the Postal Service did
                                                                       not always comply with
                                                                       processes in Handbook PO-408,
                                                                       Area Mail Processing
                                                                       Guidelines. Management
                                                                       agreed with the
                                                                       recommendations.
Service              EN-AR-07-002          12/5/2006          N/A      The Postal Service could
Implications of                                                        improve how it documents
Area Mail                                                              service impacts, including
Processing                                                             service upgrades and
Consolidations                                                         downgrades in all classes of
                                                                       mail in AMP proposals and post-
                                                                       implementation reviews.
                                                                       Management agreed with the
                                                                       recommendations.
Timeliness of        NO-AR-07-001           2/9/2007          N/A      The audit confirmed that during
Mail Processing                                                        the period July 2005 through
at the Los                                                             May 2006, the Los Angeles
Angeles,                                                               P&DC had difficulty with the
California                                                             timely processing of mail,
Processing and                                                         resulting in mail delays and
Distribution                                                           service declines. The excessive
Center                                                                 amount of delayed mail was due
                                                                       to the influx of mail volume as a
                                                                       result of closing the Marina del
                                                                       Rey P&DC; the retrofitting of flat
                                                                       sorting machines, which caused
                                                                       a temporary increase in
                                                                       machine downtime; and
                                                                       deficiencies in processing
                                                                       Periodicals and Standard Mail.
                                                                       Management agreed with the
                                                                       recommendations.




                                                        8
  Consolidation of Lima Processing                                                      NO-AR-10-007
   and Distribution Facility Mail Operations
   into the Toledo Processing and Distribution Center


                                             Final
                                            Report          Monetary
  Report Title       Report Number            Date           Impact                Report Results
Steubenville –       NO-AR-07-003          3/30/2007           N/A        Consolidating the Steubenville
Youngstown,                                                               Main Post Office’s outgoing mail
Ohio Outgoing                                                             processing operation into the
Mail                                                                      Youngstown P&DF achieved the
Consolidation                                                             desired results. Management
                                                                          agreed with our
                                                                          recommendations.
Efficiency           NO-AR-07-004          4/25/2007        $17 million   There was a favorable business
Review of the                                                             case to support transferring
Bridgeport                                                                Bridgeport P&DF’s incoming
Connecticut                                                               mail processing operation into
Processing and                                                            the Stamford P&DC. This audit
Distribution                                                              identified a savings of 53,000
Facility                                                                  work hours as a result of the
                                                                          consolidation. Management
                                                                          agreed with our
                                                                          recommendations.
Kansas City,         EN-AR-08-001          1/14/2008           N/A        The AMP proposal, supporting
Kansas                                                                    documentation, and OIG
Processing and                                                            analyses provided confirming
Distribution                                                              evidence for consolidating mail
Center                                                                    processing operations from the
Consolidation                                                             Kansas City, Kansas P&DC to
                                                                          the Kansas City, Missouri
                                                                          P&DC. However, the OIG
                                                                          identified discrepancies in some
                                                                          costs and savings calculations,
                                                                          as well as transferred mail
                                                                          volume not documented,
                                                                          downgrades in some classes of
                                                                          mail and other potential risks.
                                                                          Management agreed with the
                                                                          recommendations.




                                                        9
  Consolidation of Lima Processing                                                     NO-AR-10-007
   and Distribution Facility Mail Operations
   into the Toledo Processing and Distribution Center


                                             Final
                                            Report           Monetary
  Report Title       Report Number            Date            Impact              Report Results
Detroit,             EN-AR-08-005          7/17/2008            N/A     The Detroit AMP proposal was
Michigan                                                                generally accurate and
Processing and                                                          supported, reduced costs, and
Distribution                                                            increased operational
Center                                                                  effectiveness. However, the OIG
Consolidation                                                           identified significant
                                                                        overstatement in proposed
                                                                        annual savings as well as issues
                                                                        with a potential service
                                                                        downgrade, the stakeholder
                                                                        communication process,
                                                                        legislative restrictions, and
                                                                        potential risk factors.
                                                                        Management agreed with the
                                                                        recommendations.
Canton               NO-AR-09-011          9/22/2009           N/A       Consolidating the Canton
Processing and                                                           P&DF’s outgoing mail
Distribution                                                             processing operation into the
Facility                                                                 Akron P&DC was a prudent
Outgoing Mail                                                            business decision. No
Consolidation                                                            recommendations were
                                                                         necessary.
Dallas               NO-AR-10-003          2/24/2010          $114      We found that a business case
Processing and                                                million   existed to support consolidating
Distribution                                                            the Dallas P&DC’s outgoing mail
Center Outgoing                                                         operation into the North Texas
Mail                                                                    P&DC. Through a net reduction
Consolidation                                                           of 280,374 work hours, the
                                                                        Postal Service could save more
                                                                        than $11.9 million annually for a
                                                                        total economic impact of more
                                                                        than $114 million over a 10-year
                                                                        period (taking into account work
                                                                        hours, maintenance,
                                                                        transportation, and equipment
                                                                        costs). Management agreed
                                                                        with the recommendations.




                                                        10
  Consolidation of Lima Processing                                                         NO-AR-10-007
   and Distribution Facility Mail Operations
   into the Toledo Processing and Distribution Center


                                              Final
                                             Report           Monetary
  Report Title       Report Number            Date             Impact               Report Results
New Castle           NO-AR-10-002           2/1/2010         $1.8 million   We found that consolidating the
Processing and                                                              New Castle P&DF outgoing mail
Distribution                                                                processing operations into the
Facility                                                                    Pittsburgh P&DC was a prudent
Outgoing Mail                                                               business decision. The Postal
Consolidation                                                               Service could save more than
                                                                            $1.8 million annually (taking into
                                                                            account employee work hours,
                                                                            transportation reductions, and
                                                                            machine maintenance costs).
                                                                            Management agreed with the
                                                                            report but chose not to
                                                                            comment because there were
                                                                            no recommendations.




                                                        11
Consolidation of Lima Processing                                                                    NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center

                                 APPENDIX B: DETAILED ANALYSIS

Capacity

Adequate capacity exists at the Toledo P&DC to process the combined mail volumes
under the proposed AMP. The increase in mail volume at the Toledo P&DC would be
about 36 percent, or approximately 173 million first-handled pieces (FHP)2 over FY 2008
levels.3 However, since the Toledo P&DC experienced a 10 percent decline in mail
volume between FYs 2008 and 2009, the actual net increase in volume for the Toledo
P&DC would be approximately 25 percent based on Toledo’s FY 2009 volume. The
additional mail volume should pose no problems for the Toledo P&DC because
efficiency gains, additional capacity from new equipment, and increased staffing will
give the Toledo P&DC sufficient capacity to process all mail volume.

The Toledo P&DC will have sufficient machine capacity4 as a result of additional mail
processing equipment and existing machine idle time to process the Lima P&DF mail
volume. Specifically:

        The addition of one Advanced Facer Canceller System (AFCS),5 along with using
         the existing 43 percent of idle time, would provide excess capacity for
         approximately 54.4 million pieces. This is more than enough capacity to cancel
         the additional 30 million letters that could result from the consolidation.

        The addition of four Delivery Barcode Sorters (DBCS)6 and one DBCS output
         subsystem (OSS),7 along with using the existing 22 percent of idle time, would
         provide excess capacity of approximately 365 million pieces. This is more than
         enough capacity to process the additional 259 million letters that could result
         from the consolidation.

        The addition of one Delivery Bar Code Sorter with input/output subsystem
         (DIOSS),8 along with using the existing 25 percent of idle time, would provide
         excess capacity of approximately 129 million pieces. This is more than enough
         capacity to process the additional 84 million letters that could result from the
         consolidation.
2
  A letter, flat, or parcel that receives its initial distribution at a Postal Service facility.
3
  Conversely, we found that attempting to put Toledo’s mail volume into the Lima P&DF was not feasible due to
space and equipment limitations.
4
  We analyzed machine capacity using Total Pieces Handled, which is the number of handlings necessary to
distribute each piece of mail from receipt to dispatch.
5
  Equipment used in the first step of mail processing to face, cancel, and separate the optical character-readable mail
and the pre-barcoded mail from the non-readable mail.
6
  Equipment that sorts letter-size mail by using a barcode reader to interpret an imprinted barcode. It consists of a
mail feed and transport unit, barcode reader, stacker module, and associated electronic equipment that can sort into
a large number of separations.
7
  Equipment designed to receive barcode data from the image processing subsystem equipment and print barcodes
on mailpieces previously unresolved by the input subsystem.
8
  An enhancement to the DBCS that provides expanded processing capability. This enhancement lift images from
letters, allows more in-depth sortation, and reduces secondary and manual handlings.




                                                          12
Consolidation of Lima Processing                                                                    NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



        By increasing run time on the Automated Flat Sorting Machine (AFSM)9 and the
         Small Parcel Bundle Sorter (SPBS),10 the Toledo P&DC can process an
         additional 21 million flats and 1.6 million parcels. This is more than enough
         capacity to process the additional 14 million flats and 242,000 small parcels that
         could result from the consolidation.

Customer Service

Based on current Customer Satisfaction Measurement (CSM)11 and External First-Class
(EXFC)12 measurement scores as well as the Postal Service’s planned expenditure in
transportation, consolidation of mail processing operations should not have a significant
impact on customer service. However, some service downgrades will result from the
consolidation, and management should continue to focus on maintaining or enhancing
service during and after the consolidation. For example:

        Both the Lima P&DF and the Toledo P&DC met or exceeded national CSM
         performance scores. In FY 2009, the Toledo P&DC’s average CSM score was
         94.67 percent and the Lima P&DF’s CSM average score was 95.5 (see Table 1).

                                            Table 1: CSM Scores

                   Percent of Customers Rating Their Residential Service
                                   as Excellent, Very Good, or Good
                         3-Digit
                           ZIP         Q1 09         Q2 09        Q3 09         Q4 09         Average
            Lima          458           96            95           93            98            95.50
                          434           93            96           96            97
           Toledo         435           94            94           96            97              94.67
                          436           95            92           94            92
         National          All          93            93           93            94              93.25



9
  An automated sorter that process flats using an optical character reader (OCR), bar code reader, and online video
coding system for processing OCR rejects.
10
   Equipment that mechanizes the sorting of small parcels and bundles by receiving and sorting them into a maximum
of 132 separate output bins. The mechanical capacity of the SPBS is approximately 11,000 pieces sorted per hour.
11
   A survey of randomly selected residential postal customers that, along with unsolicited consumer complaints, offers
feedback on consumer services. Results should be stated as the percentage of customers responding Excellent,
Very Good, or Good to the overall performance question.
12
   A system whereby a contractor performs independent service performance tests on certain types of First-Class
Mail (that is, letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides national,
area, performance cluster, and city estimates, which are compared with USPS service goals. The results are
released to the public quarterly by the consumer advocate.




                                                          13
Consolidation of Lima Processing                                                                   NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center

        The EXFC scores at both locations during FY 2009 were above or near the
         national target rates. However, in Quarter 1, FY 2010 both overnight and 3-day
         service scores declined indicating that management’s attention is necessary
         during the consolidation to ensure service is maintained.

        The net service downgrades of 393 paired cities only account for 11,250
         mailpieces out of an average daily volume of approximately 1.26 million (or less
         than 1 percent) resulting in little or no service impacts. Of these, there are just 46
         downgrades in First-Class and Priority Mail (see Table 2).

        The Bulk Mail Entry Unit will be relocated to the Lima Main Post Office.

        Transportation costs will increase by $1.2 million in order to ensure that service
         standards are met.

         Table 2: Upgrades/Downgrades in Service Standards by Mail Class13


                  Mail Class            Upgrades          Downgrades              Net Change

                       FCM                    77                 98                     (21)

                  Priority Mail              134                159                     (25)

                  Periodicals                 99                187                     (88)

                 Standard Mail                56                182                    (126)
                    Package
                                              50                187                    (137)
                    Services
                  All Classes                420                813                    (393)




13
   "Service Standards" is defined as "A stated goal for service achievement for each mail class." Service Standards
represent the level of service that the USPS strives to provide to customers and are considered one of the primary
operational goals against which service performance is measured. The Service Standards by Mail Class are as
follows: Priority Mail: 1-3 Days, First-Class Mail: 1-3 Days Periodicals: 1-9 Days; Package Services: 2-8 Days;
Standard Mail: 3-10 Days. An upgrade or downgrade means that service between 2 zip codes is one or more days
faster or slower than it was before a change.




                                                         14
Consolidation of Lima Processing                                                                   NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center


Employee Impact

The consolidation of Lima P&DF mail operations into the Toledo P&DC will impact
employees. Specifically:

          Management will reassign all of the 92 employees at the Lima P&DF.

          No career employees will lose their job.

          Some employees will be entitled to relocation benefits.

          Management will reassign 41 employees from Lima P&DF to the Toledo P&DC.

          The remaining 51 employees will have opportunities for other vacancies within
           the Cincinnati District. The number of employees who retire could reduce the
           number of positions that will have to be accommodated within the Cincinnati
           District.

Management should increase communication with employees on the consolidation
process to ensure a smooth transition. Management should also continue to hold
employee briefings on relocation and retirement benefits and inform employees of job
opportunities based on issues addressed to congressional representatives.

Efficiency

Efficiency should improve as a result of the proposed consolidation. Specifically, in FY
2009:

          The Toledo P&DC was more productive in comparison to similar-sized facilities
           than the Lima P&DF. For example, the Toledo P&DC’s FHP productivity of 1,084
           was above the Group 4 average of 993 pieces per workhour, while Lima P&DF’s
           FHP productivity of 1,356 was slightly below the Group 7 average of 1,386
           pieces per workhour. This indicates that the Toledo P&DC processes mail more
           efficiently compared to other similar-size plants than the Lima P&DF does when
           compared to similar-size plants (see Charts 1 and 2).

          The increase in mail volume at the Toledo P&DC would result in a productivity
           gain of approximately 17 percent, increasing the Toledo P&DC’s FHP
           productivity to 1,269 pieces per hour.14

          The Toledo P&DC’s processing costs per 1,000 letters was $35.04 compared to
           the national average of $40.47 (or 13.4 percent less than the national average).


14
     This calculation is based on the transfer of 41 employees and mail volumes from Lima to Toledo.




                                                           15
Consolidation of Lima Processing                                  NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center

Chart 1: Toledo P&DC’s FHP Productivity Compared to Group 4 Productivity




     Chart 2: Lima P&DF’s FHP Productivity Compared to Group 7 Productivity




                                                      16
Consolidation of Lima Processing                                          NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



Saturday Outgoing Mail Consolidation

In 2004, the Postal Service transferred the Lima P&DF’s Saturday outgoing mail volume
to the Toledo P&DC for processing. The transfer produced favorable results,
specifically:

       Saturday productivity at the Toledo P&DC was better than any other day of the
        week.

       Service scores for Saturday at the Toledo P&DC were comparable to other days
        of the week. For example:

        ▫ A Saturday overnight score of 95.79 was comparable with the average daily
          score of 96.55.

        ▫ A Saturday 2-day score of 91.53 was higher than the average daily score of
          89.38.

        ▫ A Saturday 3-day score of 90.00 was significantly higher than the average
          daily score of 86.22.

       The Toledo P&DC’s successful processing of Lima P&DF’s Saturday mail
        volume demonstrates that the Postal Service had a successful prior consolidation
        involving these two facilities.




                                                      17
Consolidation of Lima Processing                                                                NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



Cost Savings

The cost savings from the consolidation will primarily result from a reduction in
workhours, offset by costs associated with the closure of the Lima P&DF. In their AMP
proposal, the Postal Service calculated cost savings using standard AMP worksheets.
We reviewed the Postal Service’s AMP proposal for accuracy and completeness. We
generally agreed with their calculations, but found cost savings reported in the proposed
AMP overstated maintenance savings by $244,059. The study included in its
maintenance cost savings three custodial positions that actually reported to the Lima
Main Post Office. The Postal Service took action to correct this discrepancy and
adjusted the projected savings.

The Postal Service adjusted their calculations and determined the first year savings to
be $1,808,104. This calculation takes into account additional transportation costs
necessary to maintain service as well as the one-time costs of employee relocation,
equipment relocation, and remodeling costs at the Lima Main Post Office.15 Annual
savings in subsequent years total $2,274,054 and include workhour savings minus the
additional transportation costs necessary to maintain service. Table 3 details these
savings.

                                 Table 3: Cost Savings Breakdown

                                                                    First Year           Annual
                                                                     Savings             Savings
             Mail Processing Craft Workhours                          $1,588,614         $1,588,614

             Non-Mail Processing Craft Workhours                         207,212             207,212
             PCES/EAS Savings                                            464,069             464,069
             Maintenance Savings                                       1,232,775           1,232,775
             Transportation                                          (1,218,616)         (1,218,616)
             Employee Relocation *                                      (205,000)
             Equipment Relocation *                                     (190,950)
             Facility Costs *                                            (70,000)
             Total Cost Savings                                       $1,808,104         $2,274,054

             * One-time costs


15
  These remodeling costs are associated with the movement of Mail Carriers and the Bulk Mail Entry Unit from the
Lima P&DF to the Lima Main Post Office.




                                                        18
Consolidation of Lima Processing                                                                     NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center



Other Matters – Safety Concerns

During our observations on April 6 through April 11, 2010, we noted security
weaknesses at the facility. Specifically, we found that the gates surrounding the docks
were left unsecured, leaving mail on the docks susceptible to theft. In addition, the
doors in some areas of the facility did not have working locks, allowing possible
unauthorized access to the building.16 (See Illustrations 2, 3, and 4.)

 Illustration 2: Unsecured Open Gate at the                      Illustration 3: Unsupervised Docks with Mail
Toledo P&DC Parking Lot. Photograph taken                          at the Toledo P&DC. Photograph taken on
                 on 4/11/2010.                                                     4/11/2010.




16
  The Administrative Support Manual (ASM) restricts access to postal facilities to authorized on-duty Postal Service
employees, authorized contractors and other, properly escorted individuals with legitimate business on the floor
(ASM, Section 273.121). Additionally, “Installation heads are required to carefully evaluate the work-flow cycles of
their units to determine when the workroom doors should be locked.” (ASM, Section 273.122.) Handbook RE-5,
Building and Site Security Requirements, states that the perimeter of the building, all exterior gates, and operational
and maneuvering areas should have controlled access. (Handbook RE-5, Section 2-1.5)




                                                           19
Consolidation of Lima Processing                                                NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center




                       Illustration 4: Unsecured Door at the Toledo P&DC with
                              Broken Lock. Photograph taken on 4/9/2010.




                                                      20
Consolidation of Lima Processing                            NO-AR-10-007
 and Distribution Facility Mail Operations
 Into the Toledo Processing and Distribution Center



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                                      21
Consolidation of Lima Processing                           NO-AR-10-007
 and Distribution Facility Mail Operations
 into the Toledo Processing and Distribution Center




                                                      20
